CERTIFICATE OF SERVICE
NO. 19-27
Mark Cheeseman
Petitioner(s)
v.
Joseph Polillo, Chief of Police, City of Glassboro, New Jersey, et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JOHN
POLILLO BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same by USPS
Priority mail, postage prepaid for delivery to the following addresses:
David D. Jensen
David Jensen PLLC
111 John Street
Suite 420
New York, NY 10038
(212) 380-6615
david@djensenpllc.com
Counsel for Mark Cheeseman

Lucas DeDeus

September 16, 2019
SCP Tracking: Anton-P.O. Box 623-Cover Orange

